No. 19-

 

IN THE
Supreme Court of the United States

NATHAN VAN BUREN,
Petitioner,
Vv.
UNITED STATES OF AMERICA,
Respondent.

On Petition for a Writ of Certiorari
to the United States Court of Appeals
for the Eleventh Circuit

CERTIFICATE OF SERVICE

The undersigned certifies that he has this 18th day of December 2019,
caused three copies of the foregoing Petition for a Writ of Certiorari to be
served on each of the below-named counsel by first-class mail, postage
prepaid, and further certifies that all persons required to be served have been
served:

Noel J. Francisco

Solicitor General

U.S. DEPARTMENT OF JUSTICE
950 Pennsylvania Avenue, NW
Washington, DC 20530

(202) 514-2217
SupremeCtBriefs@USDOJ.gov

Jefirey L. Fisher
Counsel for Petitioner
